Criminal Calls: Review of BOPs Management of Inmate Telephone Privileges
USDOJ/OIG Special Report
CRIMINAL CALLS: A REVIEW OF THE
BUREAU OF PRISONS MANAGEMENT OF
INMATE TELEPHONE PRIVILEGES
(August, 1999)
* * * * *
TABLE OF CONTENTS
EXECUTIVE SUMMARY
CHAPTER ONE: INTRODUCTION
Overview
The OIG Review
Organization of Report
CHAPTER TWO: FEDERAL INMATE ACCESS TO
TELEPHONES
Background on the BOP
Background on Inmate
Telephone Use in the BOP
The BOP Philosophy
on Inmate Use of Telephones
History of Inmate Access to
Telephones
Inmate Telephone Abuse and the
BOP 's Early Responses
The Development of the
Inmate Telephone System
Features and Installation
of the System
Washington v. Reno
Current Telephone Systems in
BOP Facilities
ITS II
Inmate Telephone Use in State
Prisons
CHAPTER THREE: LEGAL AND REGULATORY
BACKGROUND
BOP Policy and Practice
Prohibited Acts
SIS Role
CHAPTER FOUR: OIG REVIEW OF INMATE
TELEPHONE ABUSE
Determining the Scope of
Inmate Telephone Abuse
OIG Data Collection
OIG Field Visits and Survey of
ITS Institutions
Current Calling Patterns
Current BOP Monitoring Efforts
The SIS Office
Disciplinary Sanctions for
Telephone Abuse
FBI Information
Williamsport, Pennsylvania
FBI Office
Survey of FBI Field Offices
DEA Information
Surveys of U.S. Attorneys
Offices
1995 USAO Survey
OIG 1998 Survey of USAOs
CHAPTER FIVE: OIG CASE STUDIES OF
INMATE TELEPHONE ABUSE
Rayful Edmond III and
Related Cases
Rayful Edmond III
FBI Opens Investigation
of Edmond
The OIG Interview of Edmond
Jose Naranjo
Freddy Aguilera and Nelson
Garcia
OIG Conclusions About Case
Studies of Edmond, Naranjo, Aguilera, and Garcia
Anthony Jones
Background
Facts of Jones case
OIGs Conclusions
regarding BOPs handling of Joness case
Oreste Abbamonte
OIG Review of Selected Inmate
Files
CHAPTER SIX: RECENT BOP CORRECTIVE
EFFORTS
1996 BOP Working Group
The Director's Letter to Wardens
and Executive Staff
Attorney General's Working
Group
Wardens' Working Group
Working Group
Recommendations
Review by Federal Programs
Branch Attorneys
Review by BOP Office of General
Counsel
Decision on Working
Groups Recommendations
BOPs National Strategic
Planning Objective 5.11
Congressional Change in Trust
Fund Language
CHAPTER SEVEN: ANALYSIS
Cap on Inmate Calls
BOPs Failure to Devote
Sufficient Resources to the Problem
Training
Insufficient Staffing
Restriction of Telephone
Privileges as a Matter of Classification
Increase in Disciplinary
Sanctions for Inmate Telephone Abuse
Use of Administrative
Punishments
Other Possible Methods of
Restricting Privileges
BOP Penological Interests in
Providing Telephone Access
BOPs Misplaced Reliance
on New Technology
Small Improvements with
ITS II
Failure to Coordinate within
BOP on the Development and Implementation of ITS II
New Telephone Technology
Speaker Identification
Speech Recognition
CHAPTER EIGHT: RECOMMENDATIONS
Monitoring of
Inmate Telephone Calls
Discipline
Proactive Restrictions of
Privileges
Role of SIS Officer
CHAPTER NINE: CONCLUSION
APPENDICES
Appendix 1: Washington v. Reno
Appendix 2: ITS II Features
Appendix 3: Information
from the FBI: Crimes by Inmates Using Prison Telephones
Appendix 4: Information
from the DEA: Crimes by Inmates Using Prison Telephones
Appendix 5: Legal Analysis:
Restrictions on Correspondence as a Matter of Classification
TABLES
Table 1: Inmate Telephone Activity and
BOP Practices.
Table 2: Federal Prosecutions of Cases
Involving Inmates Using the Telephone to Facilitate a Crime, Survey by D.C. USAO, 1995.
Table 3: Federal Prosecutions of Cases
Involving Inmates Using the Telephone to Facilitate a Crime, Survey by DOJ OIG, 1998.
#####